LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 2, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

CHRISTOPHER SULLIVAN V. TEXAS A&M UNIVERSITY SYSTEM

Dear Sir or Madam:
I hereby certify that at the request of Counsel for the Petitioner, on July 2, 2021,
I caused service to be made pursuant to Rule 29 and the Temporary Order of April 15,
2020, on the following Counsel for the Respondent:
RESPONDENTS:
Dominique G. Stafford
Assistant Attorney General
Texas Attorney General's Office
General Litigation Division
300 W 15th St
Austin, TX 78701-1649
dominique.stafford@oag.texas.gov

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 2nd day of July 2021.

